           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



 INDIVIDUALS RECEIVING BENEFITS
 UNDER MULTIPLE SOCIAL SECURITY
  NUMBERS AT THE SAME ADDRESS


      April 2005   A-01-05-25002


 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY
MEMORANDUM
Date:   April 29, 2005                                                                Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Individuals Receiving Benefits Under Multiple Social Security Numbers at the Same
        Address (A-01-05-25002)

        Our objective was to identify and prevent individuals from receiving Old-Age, Survivors,
        and Disability Insurance (OASDI) benefits and/or Supplemental Security Income (SSI)
        payments inappropriately under multiple Social Security numbers (SSN) at the same
        mailing address.

        BACKGROUND
        The Office of the Inspector General (OIG) was alerted to three cases in January 2004
        where beneficiaries inappropriately received benefits under multiple SSNs at the same
        address.1 To identify the extent of this situation, we analyzed a data extract of
        approximately 54 million OASDI and SSI beneficiaries who received benefits in
        February 2004. Based on our analysis of the SSNs, address information and benefit
        records, we identified 354 beneficiaries who may have received benefits inappropriately
        under at least two different SSNs at the same address. (See Appendices B and C for
        additional information on background, scope and methodology.)

        RESULTS OF REVIEW
        Because of our review of these 354 cases, the Social Security Administration (SSA)
        assessed almost $9.2 million in overpayments for 220 beneficiaries who inappropriately
        received benefits under multiple SSNs at the same address. We also believe SSA
        avoided paying an estimated $1.4 million by stopping these incorrect payments.2


        1
         The Department of Health and Human Services OIG issued a report on a similar issue—Identifying
        Unauthorized Multiple Payments to the Same Person at the Same Address (A-04-87-03001),
        August 1988.
        2
         The future savings is the amount that would have been paid to the beneficiary if SSA had not stopped
        benefits based on action taken during our review. Savings were calculated by taking the last
        overpayment received by the beneficiary multiplied by 12 months. The $1.4 million consists of
        $160,150 for SSI recipients, $478,200 for OASDI beneficiaries, and $786,864 for beneficiaries receiving
        both SSI and OASDI benefits.
Page 2 – The Commissioner

Although this represents a small fraction of the $500 billion SSA pays to over 50 million
beneficiaries3 every year, 182 of the 220 cases with overpayments are being
investigated for possible fraud on the part of the beneficiary. Also, addressing these
cases supports SSA’s Strategic Plan which includes objectives to prevent fraudulent
and erroneous payments and to strengthen the integrity of the SSN.4 Our Office of
Investigations continues to work these cases.5


                    354 Cases Reviewed                            The 354 cases we identified
                                                                  included:
            140 (40%)                                                 •   29 individuals who received
           OASDI Only                                                     only SSI payments;
                                                                      •   140 individuals who
                                                                          received only OASDI
                                                   185 (52%)              benefits; and
                                                   OASDI and
                                                      SSI             •   185 individuals who
                        29 (8%)                                           received both SSI and
                        SSI Only                                          OASDI benefits.


Working with SSA staff, we found that:
          •   182 beneficiaries were overpaid about $8.6 million due to possible fraud.
          •   38 beneficiaries were overpaid $565,403 for reasons other than possible
              fraud.
          •   49 beneficiaries were not overpaid.6
          •   85 beneficiaries are still having their cases reviewed. Based on information
              we received from SSA on November 23, 2004, most of these beneficiaries
              have received improper payments and the Agency is in the process of taking
              the necessary corrective action.

The following table shows the breakout of beneficiaries and overpayments by type of
benefit received.




3
    SSA, Performance and Accountability Report, Fiscal Year 2004, pages 8 and 147.
4
    SSA Strategic Plan 2003-2008, page 22.
5
    As of January 2005, two beneficiaries have been arrested.
6
    Further review showed that these cases generally represented different individuals, such as twins.
Page 3 – The Commissioner


                                 SSI Only         OASDI Only        SSI and OASDI            TOTAL
    Overpaid – Possible Fraud   18   $560,612    55    $2,813,216   109   $5,251,661   182    $8,625,489
    Overpaid – Other Reasons    7     $28,057    12     $261,904     19    $275,442    38      $565,403
      Subtotal                  25   $588,669     67   $3,075,120   128   $5,527,103   220    $9,190,892
    Not Overpaid                 1          $0    27           $0    21           $0   49             $0
    Pending Review               3      -         46       -         36       -         85        -
    Total Cases and Dollars     29   $588,669    140   $3,075,120   185   $5,527,103   354    $9,190,892

As of April 13, 2005, SSA had recovered $517,905 of the $9.2 million in overpayments
shown in the table above (about 6 percent).

Beneficiaries Were Overpaid Due to Possible Fraud

SSA has controls in place to detect duplicate payments issued to the same SSI
recipient or OASDI beneficiary. Specifically, the Supplemental Security Income
Duplicate Payment Project (SSIDPP) is designed to eliminate the possibility of a
recipient receiving duplicate payments due to multiple SSI records.7 The Agency runs
SSIDPP annually, and cases which meet the matching criteria are identified and
transmitted to the appropriate SSA office to resolve the discrepancies.

Of 29 cases receiving only SSI payments, we found 18 instances of possible fraud.
These 18 recipients were overpaid $560,612 and received multiple SSI payments for
56 months, on average. For example:
      •   A 54-year-old recipient obtained a second SSN using a friend’s last name for the
          sole purpose of getting a second SSI payment. From August 1991 until
          July 2004, SSA overpaid this recipient $89,654.

Additionally, SSA uses its Master File Duplicate Detection Operation (MAFDUP)
software to identify beneficiaries who may be inappropriately receiving benefits on
multiple OASDI records. The Agency runs MAFDUP twice annually, and alerts for
cases which meet the matching criteria are sent to the appropriate SSA office to be
developed and resolved.

Of 140 cases receiving only OASDI benefits, we found 55 instances of possible fraud.
These 55 beneficiaries were overpaid over $2.8 million and received multiple OASDI
benefits for 101 months, on average. For example:
      •   A 71-year-old beneficiary with two different SSNs and her two children were
          overpaid $264,103 since 1971. The beneficiary’s attorney is negotiating with the
          United States Attorney’s office on this matter.


7
    SSA, POMS, SI 02310.100.
Page 4 – The Commissioner

    •   An 84-year-old beneficiary with two different SSNs was overpaid $171,052 since
        1986. The beneficiary admitted knowing that an individual cannot receive two full
        benefits at the same time. The SSA field office staff, working with OIG
        investigators, obtained copies of the beneficiary’s bank statements, showing
        sufficient funds to repay the overpayment. When presented with this information,
        the beneficiary wrote a check and repaid the funds that day.

Beneficiaries Were Overpaid for Reasons Other than Possible Fraud
We found 38 of the cases that were overpaid a total of $565,403 did not involve
possible fraud. Examples include improper payments resulting from SSA staff keying
errors, staff not cross-referencing records, staff establishing benefits under the wrong
SSN, etc. Specifically, 7 SSI recipients were overpaid $28,057 (average of $4,008 per
recipient) over an average of 12 months; 12 OASDI beneficiaries were overpaid
$261,904 (average of $21,825 per beneficiary) over an average of 49 months; and
19 beneficiaries who received both SSI and OASDI benefits were overpaid
$275,442 (average of $14,497 per beneficiary) over an average of 37 months.

SSA Does Not Detect All Duplicate Benefits Paid Under Different SSNs
SSA’s controls do not identify all beneficiaries receiving OASDI benefits and/or SSI
payments inappropriately under multiple SSNs at the same mailing address. Although
SSIDPP detects duplicate SSI payments, it is only run once a year—allowing for
overpayments to be larger and span longer periods of time than if they were detected
and resolved sooner.8 Also, although SSA runs MAFDUP twice annually to detect
duplicate OASDI payments, the 140 cases we reviewed either were not identified by
MAFDUP or were identified and not resolved.9

Furthermore, we were not able to identify any controls in place, such as SSIDPP or
MAFDUP, to detect beneficiaries receiving both SSI and OASDI benefits under different
SSNs. The SSIDPP only detects multiple SSI payments, and MAFDUP only detects
multiple OASDI benefits. Over half of the beneficiaries we identified for review received
benefits from both programs, where the individual was collecting:
    •   SSI payments under one SSN and OASDI benefits under a different SSN;
    •   SSI payments and OASDI benefits under one SSN and a second SSI payment
        under a different SSN; or
    •   SSI payments and OASDI benefits under one SSN and a second OASDI benefit
        under a different SSN.


8
 On February 24, 2005, SSA staff informed the OIG that—as of January 2005—SSIDPP would be run
quarterly.
9
  We included recommendations for MAFDUP in our March 2005 report, Individuals Receiving Multiple
Auxiliary or Survivor Benefits (A-01-05-25015). We provided the 140 OASDI cases to SSA systems staff
for review of MAFDUP processes.
Page 5 – The Commissioner

Of 185 beneficiaries receiving both SSI payments and OASDI benefits, there were
109 cases of possible fraud. These 109 beneficiaries were overpaid over $5.2 million
and received multiple SSI and OASDI benefits for 97 months, on average. For
example:
          •    A beneficiary in Chicago received SSI payments under one name/SSN
               combination from May 1985 through June 2000, while working under another
               name/SSN combination until June 1996—when she began receiving disability
               benefits. Our investigators determined that the woman was receiving a third
               benefit payment (widows benefits) under her ex-husband's SSN. The total
               overpayment amounted to $117,160 and judicial action is pending in this case.
          •    A 63-year-old individual with two SSNs was overpaid $78,731 since
               1991 because she received SSI payments while working and later collecting
               disability benefits under another SSN.

The following chart shows that individuals receiving both SSI payments and OASDI
benefits are susceptible to receiving improper payments, similar to SSI only recipients
and OASDI only beneficiaries—where SSA has data matching programs in place.

                                Average Number of Months Overpaid

          120
                              101     97
          100
                                                                                   SSI
              80
                                                                                   OASDI
 Months




                        56
              60                                              49                   SSI and OASDI
                                                                      37
              40

              20                                       12

              0
                         Possible Fraud                 Other Reasons


We received the following comments from an SSA employee who reviewed some of the
cases we identified:

          In the past, we have received a listing of SSI only cases where it appeared that
          one individual might be receiving on two SSI records, and typically the cases did
          not involve fraud or overpayments. The OIG audit listing also included [SSI] only
          cases, but additionally, [OASDI] only cases and concurrent cases … Many of the
          cases involved fraud and/or large overpayments … Our field offices are working
          with OIG, Office of Investigation[s], in the cases involving fraud … we recommend
          this process be done annually and sent to the regions for development. As
          mentioned, the results were far more significant than the annual SSI-only listing
          we have historically received.
Page 6 – The Commissioner

Obtaining Multiple SSNs

Generally, SSA assigns an individual only one SSN. Protecting the integrity of
the SSN is essential to the proper posting of reported earnings, the payment of
SSA benefits, and the prevention of fraud and SSN misuse. SSA has
implemented several initiatives to protect the integrity of the SSN. For
example, SSA now requires mandatory interviews for all applicants for original
SSNs who are over age 12 (lowered from age 18) and requires evidence of
identity for all children, regardless of age. In addition, SSA has established an
Enumeration Center in Brooklyn, New York, that focuses exclusively on
assigning SSNs and issuing SSN cards.

The following table shows the range of time between the issuance of two SSNs
under which benefits were paid for the 220 cases with overpayments. The
majority of these SSNs were issued more than a year apart.10

                        Time Period Between SSNs                   Cases
                                Being Issued                      Overpaid
                       Unknown                                       16
                       Same month                                    20
                       Same year, over 1 month apart                 14
                       1 to 5 years apart                            32
                       6 to 10 years apart                           26
                       11 to 15 years apart                          33
                       16 to 20 years apart                          29
                       21 to 25 years apart                          27
                       Over 25 years apart                           23
                          Total                                      220

Benefits Issued Under Different Names

Our review of the 220 cases with overpayments showed that some beneficiaries not
only had different SSNs, but they were also receiving benefits under different last
names.
     • 154 beneficiaries received multiple benefits using different last names—
        146 involved possible fraud and 8 did not.
     • 66 beneficiaries received multiple benefits under the same last name—
        36 involved possible fraud and 30 did not.


10
   Based on feedback from SSA staff and OIG investigators, several of these individuals appear to have
fraudulently obtained the second SSN by providing false information or documents to SSA.
Page 7 – The Commissioner

The criteria SSA uses to identify duplicate payments includes matching on name.
Therefore, if the names are different, SSA is less likely to identify them. Once all
instances of possible fraud have been worked through resolution, we will revisit these
cases to identify additional common characteristics regarding SSN integrity and misuse
to share with SSA. (See Appendix D for prior OIG reports on SSN integrity.)

CONCLUSIONS AND RECOMMENDATIONS

SSA’s controls do not identify all individuals receiving OASDI benefits and/or SSI
payments inappropriately under multiple SSNs at the same mailing address. Further, a
portion of the individuals we identified appeared to have obtained benefits fraudulently—
and SSA and the OIG continue to address this. To assist SSA in preventing fraudulent
and improper payments and to strengthen the integrity of the SSN, we recommend that
SSA:

   1. Develop a match to identify and prevent beneficiaries inappropriately receiving
      both OASDI and SSI benefits under different SSNs.

   2. Ensure that all beneficiaries inappropriately receiving multiple OASDI benefits at
      the same address are identified and that appropriate action is taken.

   3. Run SSIDPP more frequently than once per year.

AGENCY COMMENTS

SSA agreed with our recommendations. The Agency is planning to conduct a yearly
match—beginning in February 2006—to identify and prevent beneficiaries receiving
both OASDI and SSI benefits under different SSNs at the same mailing address. In
addition, SSA took action on the OASDI cases and started running SSIDPP quarterly.
(See Appendix E for SSA’s comments.)




                                               S
                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Background

APPENDIX D – The Social Security Number

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                          Appendix A

Acronyms
 MAFDUP    Master File Duplicate Detection Operation

 MBR       Master Beneficiary Record

 OASDI     Old-Age, Survivors, and Disability Insurance

 OIG       Office of the Inspector General

 POMS      Program Operations Manual System

 SSA       Social Security Administration

 SSI       Supplemental Security Income

 SSIDPP    Supplemental Security Income Duplicate Payment Project

 SSN       Social Security Number

 SSR       Supplemental Security Record

 U.S.C.    United States Code
                                                                                   Appendix B

Scope and Methodology
To accomplish our objective, we:

   Reviewed applicable sections of the Social Security Act and Social Security
    Administration (SSA) regulations, rules, policies and procedures.
   Reviewed a prior Department of Health and Human Services, Office of the Inspector
    General report, Identifying Unauthorized Multiple Payments to the Same Person at
    the Same Address (A-04-87-03001), August 1988.
   Obtained a file of Master Beneficiary Records (MBR) for all primary and auxiliary
    beneficiaries1 and Supplemental Security Records (SSR) for all Supplemental
    Security Income (SSI) recipients who received benefits in February 2004. We ran
    several matches on these files based on the following fields: 5-digit zip code; date of
    birth; first name; and first 5 characters of the street address. We compared these 4
    fields in the following files:

            • Records within the SSR file.
            • Records in the MBR file against the SSR file.
            • Records within the MBR primary beneficiary file.
            • Records in the MBR primary beneficiary file against the MBR auxiliary
              beneficiary file.
            • Records within the MBR auxiliary beneficiary file.
    We removed any cases where the benefits on one record were cross-referenced or
    accounted for on the other record—as these individuals were entitled on multiple
    records or were concurrent beneficiaries—and SSA has processes in place to
    ensure benefits are adjusted appropriately. In addition, we removed any cases
    where the records were cross-referenced but the Social Security number (SSN) was
    incorrect, as we have previously studied this issue, and SSA is taking corrective
    action to identify and stop overpayments on these records with incorrect or missing
    SSNs.2 Any remaining instances where two or more cases matched on the fields
    listed above were kept for review.


1
  A “primary beneficiary” is a Social Security number-holder entitled to benefits based on his/her own
work record. An “auxiliary beneficiary” is someone entitled to benefits based on someone else’s work
record, by virtue of relationship to the number-holder. SSA, POMS GN 03301.002 B.
2
  We provided recommendations for incorrect and/or missing auxiliaries’ SSNs in our audit reports—
Impact on the Social Security Administration’s Programs When Auxiliary Beneficiaries Do Not Have Their
Own Social Security Numbers (A-01-02-22006), September 2002; and Impact on the Social Security
Administration’s Programs When Auxiliary Beneficiaries Have Incorrect Social Security Numbers
(A-01-03-33020), November 2003.


                                                   B-1
    This match resulted in 1,329 cases for possible inclusion in our review. We then
    obtained the Numident record3 for each beneficiary and compared the place of birth,
    parents, full names, other names used, and any other information on the record to
    help determine if the SSNs belonged to the same person or different individuals,
    such as twins with similar names. In addition, we reviewed the MBRs and SSRs to
    compare phone numbers, bank account information, and any other information
    available to help in making the determination.

    After our matching processes and additional reviews, we had 381 cases where we
    believed individuals might be inappropriately receiving benefits under multiple SSNs
    at the same address. Prior to sending these cases to SSA to confirm their identities
    and assess whether payments were appropriate, 27 duplicate payments were
    detected by SSA and resolved. We referred the remaining 354 cases to SSA for
    review and requested that any instances of possible fraud be referred to the Office of
    the Inspector General’s Office of Investigations.

    After obtaining feedback from SSA on our cases, we quantified the amount of
    overpayments assessed by the Agency. We also calculated future savings for the
    next 12 months where SSA stopped the improper payments.

We conducted our audit between May 2004 and February 2005 in
Boston, Massachusetts. We found the data used for this audit were sufficiently
reliableto meet our audit objective. The entities audited were the Field Offices and
Program Service Centers under the Deputy Commissioner of Operations, and the Office
of Retirement and Survivors Insurance Systems and the Office of Disability and
Supplemental Security Income Systems under the Deputy Commissioner of Systems.
We conducted our audit in accordance with generally accepted government auditing
standards.




3
 The Numident Master File houses, in SSN order, the identifying information for each number-holder.
SSA, POMS, RM 00209.002.


                                                 B-2
                                                                           Appendix C

BACKGROUND
SSA’s Controls for Detecting Duplicate Payments
When an individual applies for Old-Age, Survivors, and Disability Insurance (OASDI)
benefits or Supplement Security Income (SSI) payments, Social Security Administration
(SSA) staff ask the person about any prior applications for benefits. This is to ensure
that individuals who may be entitled on more than one record receive the correct
amount. In addition, SSA runs computer matches to identify records that appear to be
duplicates based on name, date of birth, and/or zip code. SSA personnel review the
records to determine whether they relate to the same beneficiary, correct the benefit
amounts (if necessary), and assess any overpayments.

SSI

Under Title XVI of the Social Security Act, the SSI program provides a minimum level of
income to financially needy individuals who are aged, blind, or disabled.1 Generally,
individuals may receive payment of both OASDI and SSI benefits under the same
Social Security number (SSN),2 as long as the combination of such benefits does not
exceed the maximum SSI payment allowed.3

The Supplemental Security Record (SSR) exchanges information with other SSA
systems to detect duplicate records and payments. When differences are detected
between the identity data from the SSR and other systems, an automatic alert is
generated. SSA field office staff review the records, resolve any discrepancies, and
make any necessary adjustments in SSI payments.4

Additionally, SSA designed the SSI Duplicate Payment Project to reduce the possibility
of a recipient receiving duplicate payments due to multiple SSI records.5 The project is
run annually and is designed to identify cases which have matching names and the
same date of birth.6 Cases which meet these criteria are identified and transmitted to
the appropriate SSA office to resolve the discrepancies.

OASDI

1
    The Social Security Act § 1601, et seq., 42 U.S.C. § 1381, et seq.
2
    The Social Security Act § 1612(a)(2)(B), 42 U.S.C. § 1382(a)(2)(B).
3
    The Social Security Act § 1611(a)(1)(A), 42 U.S.C. § 1382(a)(1)(A).
4
    SSA, POMS, SM 02001.001-.425.
5
    SSA, POMS, SI 02310.100.
6
 On February 24, 2005, SSA staff informed the OIG that—as of January 2005—SSIDPP would be run
quarterly.


                                                     C-1
Under Title II of the Social Security Act, the OASDI program provides monthly benefits
to retired or disabled workers and their families and to survivors of deceased workers.7
An individual may be eligible for benefits on several records. For example, a person
can be entitled to benefits on his own earnings record and on his spouse’s record.
Although entitled on both records, SSA procedures generally provide that only the
higher benefit amount is payable.

To ensure that individuals who are entitled to multiple OASDI benefits receive the
correct payment amount, SSA developed systems to adjust, validate, and post accurate
entitlement information on the Master Beneficiary Record (MBR) involved.8 SSA also
has another control in place to detect duplicate OASDI benefits, the Master File
Duplicate Detection Operation (MAFDUP). The Agency runs MAFDUP twice annually
(March and September) to detect records that match on several items, including first
name, middle name, last name, zip code, and date of birth. Alerts are generated for
beneficiaries who may be receiving benefits under multiple SSNs to the appropriate
SSA office to be developed and resolved. To assist the Agency with tracking
overpayments established as a result of MAFDUP, all overpayments posted to benefit
records must be coded as “multiple entitlement.”9




7
    The Social Security Act §§ 202(a) - (k), 42 U.S.C. §§ 402(a) - (k).
8
    SSA, POMS, SM 00823.001.
9
    SSA, Operations Bulletin, OB 04-0197, April 1, 2004.



                                                       C-2
                                                                         Appendix D

The Social Security Number
Generally, the Social Security Administration (SSA) assigns an individual only one
Social Security number (SSN). This unique number is used to record the individual’s
earnings for future benefit purposes and to keep track of benefits paid under that
number. However, SSA may assign an individual a new SSN under certain
circumstances, including:
      •   Sequential SSNs were assigned to members of the same family.
      •   Earnings records have become scrambled (i.e., wages belonging to one
          individual are posted to another individual’s record).
      •   There are religious or cultural objections to certain numbers in the SSN.
      •   Evidence clearly shows the individual’s SSN has been misused, and that he or
          she is being disadvantaged by that misuse.1

SSA’s policy, in most cases, is to cross-reference the records for all SSNs assigned to
an individual.2 When SSA becomes aware that an individual may have been assigned
more than one SSN, staff review the records and other available information to
determine if the SSNs actually belong to the same individual. If the SSNs do belong to
the same person, cross-reference fields are manually added to each record. A new
SSN may be inappropriately assigned to an individual if he/she provides incomplete
information or deliberately provides false information on the SSN application and
submits evidence of age, identity, and citizenship/alien status/work authorization, which
supports the information on the SSN application.

Prior Reports on SSN Integrity
The following table shows some of the recent reports we have issued on SSN integrity.


                  Social Security Number Integrity and Protection
                               Report                                      Issued
Management Advisory Report: The Social Security
Administration's Procedures for Enumerating Foreign Students          December 17, 2003
(A-05-03-23056)
Social Security Numbers with More Than One Owner
                                                                         June 23, 2004
(A-03-03-23003)


1
    SSA, POMS, RM 00205.040.
2
    SSA, POMS, RM 00205.001.


                                              D-1
                Social Security Number Integrity and Protection
                            Report                                      Issued
Brooklyn Social Security Card Center's Compliance with Policies
and Procedures When Processing Noncitizen Social Security            August 30, 2004
Number Applications (A-08-04-14061)
Compliance with Policies and Procedures When Processing
Noncitizen Social Security Number Applications at Foreign            August 30, 2004
Service Posts (A-08-04-14060)
Field Offices' Compliance with Policies and Procedures When
Processing Noncitizen Social Security Number Applications            August 30, 2004
(A-08-04-14005)
Congressional Response Report: Survey of Educational
Institutions’ Issuance of Work Authorization Documents to Foreign   September 30, 2004
Students (A-08-04-24102)




                                             D-2
                  Appendix E

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM                                                                      34111-24-1247


Date:      April 15, 2005                                                       Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Individuals Receiving Benefits
           Under Multiple Social Security Numbers at the Same Address" (A-01-05-25002)--
           INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG)
DRAFT REPORT "INDIVIDUALS RECEIVING BENEFITS UNDER MULTIPLE
SOCIAL SECURITY NUMBERS AT THE SAME ADDRESS" (A-01-05-25002)


Thank you for the opportunity to review and comment on the draft report. We appreciate your
assistance in identifying and preventing fraudulent and improper payments and strengthening the
integrity of the Social Security number (SSN). Over the last several years, we have focused
much attention on strengthening the integrity of the SSN and I am pleased to take this
opportunity to describe some of the initiatives and tools that are, or will be, available to address
the specific issues identified in this report.

Since June 2002, we have required collateral verification of birth records for applications for
original SSNs submitted for United States-born individuals age one and over. Furthermore, as
required by Section 7213 of Public Law 108-458, we will soon begin verifying birth records
(excluding those processed through the Enumeration at Birth Process) submitted by individuals
to establish eligibility for an SSN. An Agency workgroup is currently working on the
implementation of this provision. In addition, since October 1, 2002, the Social Security
Administration (SSA) no longer assigns SSNs to non-citizens without first verifying the
authenticity of their documents with the Department of Homeland Security.

To improve the processing of enumeration transactions, we now have a new tool called the "SS-5
Assistant." This tool serves as the front-end interface to the SSA enumeration system which
Field Office employees use to process SSN applications through the Modernized Enumeration
System (MES). The SS-5 Assistant guides the SSA employee through the enumeration process
and enforces compliance with all enumeration policies.

In addition, in February 2004, we made several systems enhancements to the Master File
Duplicate Detection Operation (MAFDUP) to improve the identification of inappropriate
multiple payments to the same address. MAFDUP was reprogrammed to interface with
enhancements to the Master Beneficiary Record (MBR), to compare health and medical
insurance data. The interface assists us in identifying multiple SSNs at the same address who
may be receiving inappropriate benefits. Finally, as part of our redesigned MES, we plan to
develop a sophisticated means to search for the existence of multiple SSNs whenever someone
applies for an original or replacement SSN in order to prevent and/or identify these situations.

In summary, we are confident that these changes are making it considerably more difficult for
individuals to obtain SSNs using fraudulent documents and then defraud SSA. Our responses to
the specific recommendations and some technical comments are provided below:




                                                E-2
Recommendation 1

SSA should develop a match to identify and prevent beneficiaries inappropriately receiving both
Old Age Survivors and Disability Insurance (OASDI) and Supplemental Security Income (SSI)
benefits under different SSNs.

Response

We agree. We are working internally with our systems staff to conduct a yearly match,
beginning in February 2006, to identify and prevent beneficiaries receiving both OASDI and SSI
benefits under different SSNs at the same mailing address. We expect the match operation to be
handled through the process known as "CATF," where special programming requests are
accomplished to assist with fraud investigative operations.

Recommendation 2

SSA should ensure that all beneficiaries inappropriately receiving multiple OASDI benefits at
the same address are identified and that appropriate action is taken.

Response

We agree. We completed our review of the cases provided by OIG in January 2005 and took
appropriate action on all beneficiaries identified as possibly receiving incorrect multiple benefits.
As a result of this review, we also referred cases that involved possible fraud to OIG for
investigation.

Recommendation 3

SSA should run the Supplemental Security Income Duplicate Payment Project (SSIDPP) more
frequently than once per year.

Response
We agree. As of January 2005, SSA runs the SSIDPP quarterly.



[In addition to the items listed above, SSA provided technical comments which have
been addressed, where appropriate, in this report.]




                                                E-3
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, (617) 565-1765

   David Mazzola, Audit Manager (617) 565-1807


Acknowledgments

In addition to those named above:

   Phillip Hanvy, Senior Program Analyst

   Kevin Joyce, IT Specialist

   Cheryl Robinson, Writer-Editor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-05-25002.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
